GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL


       Recovery Act Report – Austin Courthouse Project
    Review of PBS’s Major Construction and Modernization
      Projects Funded by the American Reinvestment and
                     Recovery Act of 2009
              Audit Number A090172/P/R/R10001

                      March 12, 2010
Date:         March 12, 2010

Reply to      R. Nicholas Goco
Attn of:      Deputy Assistant Inspector General
              For Real Property Audits (JA-R)

Subject:      Recovery Act Report – Austin Courthouse Project
              PBS’s Major Construction and Modernization Projects Funded by the
              American Reinvestment and Recovery Act of 2009
              Audit Number A090172/P/R/R10001

To:           Robert A. Peck
              Commissioner, Public Buildings Service (P)

As part of our oversight of the General Services Administration’s American Recovery and
Reinvestment Act projects, we are bringing a matter to your attention. Our review of the Austin
Courthouse project found that the Construction Manager as Constructor (CMc) contracting
approach was incorrectly executed and resulted in the construction portion of the contract being
awarded as an unpriced option for $102 million without a justification for using other than full
and open competition. Moreover, the basis for the price reasonableness determination was not
based on Government Cost Estimates and was not supported, and therefore, the price
reasonableness of the construction option was not substantiated. In effect, the exercise of the
construction phase option amounted to a sole source procurement without authorization and
without a basis for the pricing.

Background

The American Reinvestment and Recovery Act of 2009 (Recovery Act) provides the General
Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund. In accordance
with the Recovery Act, the GSA Public Buildings Service (PBS) is using the funds to convert
Federal buildings into High-Performance Green Buildings as well as to construct Federal
buildings, courthouses, and land ports of entry. The Recovery Act mandates that $5 billion of
the funds must be obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting oversight of the
projects funded by the Recovery Act.

The work on the Austin Courthouse project began prior to the passage of the Recovery Act.
However, when Recovery Act funds became available, the agency selected this project’s
construction phase as part of the new courthouse construction projects under the Recovery Act.


                                               1
Construction was Awarded through an Unpriced Option

When the original request for proposal was issued for the Austin Courthouse project, the contract
was intended to be awarded as a CMc contract with a Guaranteed Maximum Price. Generally,
this type of contract is initially awarded for design phase services 1 at a firm fixed price with an
option for construction phase services at a Guaranteed Maximum Price that is established at
contract award. The Guaranteed Maximum Price acts as a ceiling price for the actual
construction phase services. The proposed Guaranteed Maximum Price is evaluated along with
the pricing for the design services for the award to be made.

The design phase services were awarded on September 29, 2006, for a firm fixed price of
$277,427 and the construction phase services were priced at $60 million. However, the contract
award did not establish a Guaranteed Maximum Price. The request for proposal was modified
based on comments made at the pre-proposal conference by the contracting officer so that the
Guaranteed Maximum Price would be established after the design was complete. According to
the minutes of the pre-proposal meeting posted to FedBizOpps 2 , the contracting officer stated:

     “For purposes of preparing your price proposal for the Construction Phase Services,
     keep in mind what we are looking for, at this stage, is your understanding of the cost
     range of $50-60M and the Guaranteed Maximum Price (GMP) concept. The actual
     GMP proposal will not be submitted by the firm selected for this contract until after the
     design phase has been completed.”

When asked about the pricing for the construction phase services, the contracting officer stated
that the $60 million was only a “place holder” because the GMP was not established. As such,
the option for the construction phase services was not priced and was to be negotiated later.

In this case, while the initial award was competitive and both technical approach and price were
part of the award criteria, the only pricing evaluated was for design services, a relatively small
cost component of the entire contract. The CMc contractor that was awarded the contract was
ranked with the highest technical proposal and at $277,427 had proposed the lowest cost for the
design phase services. Subsequently, the design phase services were increased by $127,009 for
costs related to efforts to reduce project costs after the contractor provided an initial construction
phase estimate of $108.3 million in November 2006 after the design development studies were
completed.

When the design phase was completed, GSA exercised the option for construction phase services
and established a Guaranteed Maximum Price of $102,554,074 effective on July 31, 2009.
According to the General Services Acquisition Manual 536.270, if exercising an unpriced option,
the statutory authority permitting the use of other than full and open competition, such as unusual
and compelling urgency or one responsible offeror, needs to be cited. However, at the time of
our review, the contract file did not contain any documentation citing this authority and none was
provided when requested.

1
  Design Phase Services include activities such as ensuring the design complies with applicable regulations, codes,
and standards as well as ensuring the constructability of the design.
2
  FedBizOps is the Federal Business Opportunities website.

                                                         2
Basis for Price Reasonableness Needs to be Substantiated

Since the cost of the construction phase services were not evaluated under the initial award, the
price reasonableness needed to be established prior to the exercise of the construction phase
option. According to General Services Acquisition Manual 536.203, cost estimates are to be
used to evaluate offers and as a tool for determining the reasonableness of prices. However,
when the option was exercised, the cost estimates had not been reconciled with the Guaranteed
Maximum Price of $102,554,074 3 and were not used to establish price reasonableness.

Prior to exercising the construction phase option, GSA obtained two cost estimates based on the
design at 95 percent of completion and one based on the design at 100 percent of completion.
The cost estimates at 95 percent of completion were for about $88.0 million and $95.1 million.
When these estimates were reconciled to each other, the estimate was approximately $91.6
million. The cost estimate at 100 percent of design completion dated July 1, 2009, was for about
$84.6 million. However, these cost estimates were not reconciled to the Guaranteed Maximum
Price prior to award and were not used as the basis for price reasonableness.

Instead, according to the Award Determination Memo to File developed by the contracting
officer for the exercise of the construction phase option, the total project cost according to the
CMc contractor’s July 12, 2009 estimate of $103,836,188 was compared to the FY09 ECCA 4 for
$110,118,414 and FY 10 ECCA for $104,704,779. However, these amounts are not derived
from any of the cost estimates for the project and no support for these amounts was provided.

As the amounts used to assess the contractor’s pricing are not based on the government cost
estimates and are unsupported by any known cost estimate, price reasonableness has not been
established.


Recommendations

We recommend that the Commissioner of the Public Buildings Service:

    1) Take action to correct the infirmities in the award of the option for Construction Phase
       Services for the Austin Courthouse project.

    2) Perform a review of the cost of construction for the Austin Courthouse project to ensure
       that it is fair and reasonable based on information that is current, accurate, and complete.




3
  The CMc contractor’s final cost estimate, dated July 15, 2009 totaled $103,836,188. In determining the Guaranteed Maximum
Price, the cost estimate was adjusted to $102,554,074.
4
  ECCA typically stands for Estimated Contract Cost at Award.

                                                             3
Management Comments

In its response, PBS disagreed with the two findings and concluded that the recommendations
did not need to be followed (see Appendix A). PBS’s position is that the construction phase is
not an unpriced option because the bidders submitted proposals for the construction phase and
the PBS Source Selection Evaluation Board (SSEB) evaluated the pricing although it is not
shown in the SSEB report. With regard to price reasonableness, PBS’s position is that while it
incorrectly documented the file, the contracting officer did obtain competitive bids for the
guaranteed Maximum Price and identifies steps taken to support the price.

PBS’s response is predicated on the assertion that the SSEB evaluated the construction phase
pricing. However, the SSEB report specifically states that the evaluation was never performed.
As such, PBS’s response is based on inaccurate information and the arguments are flawed and do
not comport with guidelines for the use of Construction Manager as contractor (CMc) contracts
or the Federal Acquisition Regulation. Therefore we reiterate our position and have provided a
response to PBS’s comments (see Appendix B).

We appreciate the support that has been provided throughout this review. If you have any
questions about this memorandum, please contact me on (202) 219-0088.


Sincerely,



R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




                                              4
                                                          GSA Public Buildings Service
   'MAR 0;12Q1O
     ..
MEMORANDUM FOR R. NICHOLAS GOCO
               DEPUTY ASSISTANT INSPECTOR GENE
               FOR REAL PROPERT    UDITS (JA-R

FROM: 	                ROBERT A. PECK
                       COMMISSIONER (P)

SUBJECT: 	             Draft Recovery Act Report - Austin Courthouse Project Review
                       of PBS's Major Construction and Modernization Projects
                       Funded by the American Reinvestment and Recovery Act of
                       2009, Report Number A090172.


Thank you for the opportunity to review and provide comments to the draft subject audit
report. The Public Buildings Service's comments are attached for your consideration
before issuing the final report and inclusion in the appendix.

If you have any questions, please contact William J. Guerin, Recovery Executive, at
(202) 208-0445.

Attachments




                                                         U.S. General S ervices Administration
                                                         1800 F Stre.\ NW
                                         A-1
                                                         Washington, DC 20405·0002
                                                         W\W/.gsagov
                      THE PUBLIC BUILDINGS SERVICE'S RESPONSE
                        TO THE OFFICE OF INSPECTOR GENERAL'S
                                DRAFT REPORT ON THE
                             AUSTIN COURTHOUSE PROJECT
                               AUDIT NUMBER A090172



Background

The Construction Manager as Constructor (CMc) solicitation for the new U.S.
courthouse in Austin, TX, was issued for design phase services with an option for
construction phase services via Federal Business Opportunities (FedBizOps),
www.fbo.gov, on May 16, 2006. The offerors were required to submit a proposal for
both the design phase services and the construction phase services. The proposals
were to include the direct costs as well as the fees (overhead, profit, and commission).

The Solicitation Notice was posted on the FedBizOps website on May 16, 2006. This
notice described the services required and the source selection evaluation factors.
The source selection evaluation factors, which were used by the Source Selection
Evaluation Board (SSEB) in evaluating the proposals, included past performance and
experience in providing both pre-construction (design phase) and construction phase
services.

Construction was Awarded through a Priced Option

PBS takes exception to the Office of Inspector General's (OIG's) statement that the
option for construction phase services was not priced. The offerors were told during the
pre-proposal conference they needed to include with their proposal a price for the
construction phase services. The conference minutes were incorporated via
amendment into the Request for Proposal (RFP). They were also told to include a
proposal for their fees. The bid form they used to submit their proposals clearly
identified these requirements. While the offerors were told the cost range for
construction was $50-60M and they could consider using $60M as a place holder, it was
up to each offeror to propose what they chose for the construction phase services. This
is evidenced by the proposals that were submitted, as they included proposed
construction costs ranging from $59,800,000 to $61,900,000.

Listed below are the proposals for both the design and the construction phases. (The
amounts represent the Final Revised Proposals.) The names of the offerors are not
provided, as this is proprietary information.




                                           A-2
                                             2

          Design Phase                       Construction Phase

     1)       $277,427                           $60,000,000
     2)       $290,000                           $60,000,000
     3)       $335,000                           $61,900,000
     4)       $400,000                           $59,800,000
     5)       $583,000                           $60,000,000

As described in the minutes from the pre-proposal conference, the offerors were told, in
response to a question about how to address the anticipated escalation in construction
costs between 2006 and the estimated construction start date of spring 2009, that they
should use their best judgment when preparing their proposal for the construction phase
of the project. Also, Amendment No.5, dated August 26, 2006, requested the offerors
to ensure all information required was provided, including fees and an amount proposed
for the option "Construction Phase Services." It is evident that the SSEB and the
Contracting Officer (CO) were going to evaluate the cost proposed for construction, as
well as the proposed fees.

As indicated in the objective report prepared by the SSEB, the costs proposed for the
design phase, the costs proposed for the construction phase, and the percentages
proposed for the fees (overhead, profit, and commission on subcontractors), were all
evaluated by the SSEB and used in establishing which firm offered the best value to the
Government for the services required.

It is true that neither the initial report nor the final report prepared by the SSEB made
reference to the evaluation of the proposed construction phase costs. All references to
cost were to the design phase costs. However, as stated above, each offeror submitted
a price for the construction phase services and the SSEB analyzed these proposed
construction phase costs, as part of their evaluation of the total proposal. The option for
the construction phase services was therefore a priced option, not an un-priced option
that required a Justification for Other Than Full and Open Competition.

Basis for Price Reasonableness

PBS takes exception to the statement that the cost of the construction phase services
was not evaluated under the initial award. The CMc offerors included a cost for the
construction phase and included their proposed fees in their respective proposals.
These costs and fees were evaluated by the SSEB and were taken into consideration
when recommending selection to the CO for the initial award.

Although GSA had established a goal to award this ARRA-funded project no later than
August 1, 2009, the process utilized to establish the Guaranteed Maximum Price (GMP)
was fair and reasonable and was no different than if the project had been awarded with
non-ARRA funds. While the design architect was not able to fUlly incorporate into the
construction documents all of the various value engineering (VE) items and design



                                           A-3
                                             3

issues, the steps described below were taken to ensure the awarded GMP was
evaluated by the SSEB and found to be fair and reasonable.

The design architect issued several addendums to the documents in the days leading
up to the due date for the GMP. These addendums addressed the various VE items
and design issues. The CMc included allowances in its GMP proposal for many of the
scope items included in these addendums. In addition, the CMc included $2,415,000 in
contingencies to cover the design issues yet to be resolved.

The various cost estimates prepared for this project were not all reconciled prior to
exercising the option for the construction phase. However, in order to determine if the
GMP proposal was fair and reasonable in comparison to the cost estimates, the
estimates prepared by the Government and its agents were analyzed by the project
team to determine what costs were not included that were included in the GMP. These
costs reflect all the scope changes described in the addendums; the $2,343,534 for the
City of Austin Right of Way (ROW) fees and the approximately $1,000,000 for the
anticipated Texas Gross Receipts Tax. The cost estimates had also been based on the
"low bid" concept, as opposed to the "best value" concept, which is the method required
in the solicitation for these services. Historic data indicates "best value" pricing is more
often higher than "low bid" pricing. This was taken into consideration. The cost
estimates were also based on an estimated 3D-month performance period, instead of
the 36-month performance period in the CMc contract. This was also taken into
consideration by the project team in their analysis of the cost estimates. These various
adjustments could have added another $5 million to the reconciled cost estimate of
$91.6 million, increasing it to $96.6 million and bringing it to within 5 percent of the GMP
award amount.

The CO was able to determine the GMP proposal was fair and reasonable based on the
information described below. As stated above, it is important to recognize that the
process used to determine the GMP was fair and reasonable and was no different than
if the project had been awarded with non-ARRA funds.

   1) The revised benchmarks provided by the General Services Administration (GSA)
      Central Office. (See explanation provided below and attached benchmarks.)

   2) The extensive competition received from the subcontractor market. The CMc
      provided the attached list to the project team that identified the subcontractor
      trades (by specification diVision) that submitted proposals. There were only three
      trades (out of 41) where only one quote was received. For some trades, there
      were as many as seven quotes received. The average number of quotes per
      trade was five. This indicates extremely good competition.

   3) The reconciled cost estimate, adjusted as described above to take into account
      all the costs missing from the estimate.




                                            A-4
                                             4


   4) Suspended design services. Design services for this project were suspended for
      approximately one year due to the Courts moratorium. Services were suspended
      a second time for several months while Congress reviewed the process to be
      used to measure the square footage of Federal buildings. The design was
      suspended a third time after the CMc submitted its cost estimate for the design
      development phase. (This cost estimate was $110 million.) The delay in
      completing the design had a direct and adverse impact on the construction costs,
      as described below.

The CMc informed the Government the explosive construction market in the Austin area
was contributing to the escalation of both labor and material costs. In addition, oil and
steel prices were skyrocketing. The Government therefore decided it was prudent to
conduct a market survey to determine if these conditions were indeed affecting the
prices the CMc was receiving from the subcontract market.

The CMc, the Construction Manager (CM) under contract to the Government, and an
independent cost estimator under contract to GSA's Public Buildings Service's (PBS's)
Office of the Chief Architect conducted market surveys. Moreover, the Corps of
Engineers (COE) was conducting its own market survey of both the Austin and San
Antonio areas.

The results of all the separate market surveys described above confirmed that
numerous construction projects under way and planned for the near future in the Austin
area, along with the rising costs of fuel and steel, were contributing to the higher than
normal material and labor costs. Based on these market surveys, GSA Central Office
increased the benchmark for the project from $63,632,495 for FY 2008 to $98,154,329
for FY 2009 and to $102,650,720 for FY 2010. (See attached benchmark calculation
sheets.) The design architect was informed of the increase in the benchmark and their
contract modified to increase the ECCA to reflect the FY 2009 benchmark amount.

The Award Determination Memo to File (Memo) referenced incorrect amounts for the
FY 2009 and FY 2010 benchmarks. An amendment to this Memo will be prepared to
reference the correct benchmark amounts.

Recommendations

The costs of the construction phase services for this project were competed, along with
the costs for the design phase services. The result was a priced option that was
properly evaluated by the SSEB. The exercise of this priced option was in compliance
with the Federal Acquisition Regulation and the General Services Administration
Acquisition Manual.

No actions to correct alleged infirmities in the award of the option for the Construction
Phase Services for the Austin courthouse project are required.



                                           A-5
                                            5

It is recommended the Memo should be amended to reflect the correct amounts of the
FY 2009 and FY 2010 benchmarks. The Memo will also specifically address the price
competition for the construction phase and how the CO determined the GMP proposal
for the priced construction option was fair and reasonable.

In addition, the GSA CO and Project Manager continue to negotiate the GMP proposal
with the CMc, in order to reach a firm, fixed-priced (FFP) proposal. Several design
issues have been resolved, which will enable the CMc to finalize pricing and reduce
various allowance and contingency amounts in their GMP proposal. A reduction in
direct costs will result in a reduction to some indirect costs, such as insurance and
bonds. The results will be a FFP award amount less than the GMP award amount of
$102,554,074 and one within 2 to 3 percent of the FY 2009 benchmark amount of
$98,154,329.

It is also recommended that the reconciliation effort should be completed so as to reflect
the same cost elements that are included in the GMP. This reconciled cost estimate will
then be compared with the negotiated GMP proposal from the CMc and the benchmark
amounts to establish that the FFP award amount is fair and reasonable.




                                             A-6
                    Recovery Act Report – Austin Courthouse Project
                 Review of PBS’s Major Construction and Modernization
                   Projects Funded by the American Reinvestment and
                                  Recovery Act of 2009
                           Audit Number A090172/P/R/R10001

                                 Management Comments

The Benchmark Calculation for the FY09 Construction of the Austin Courthouse project has
been redacted at the Agency’s request.




                                            A-7
                    Recovery Act Report – Austin Courthouse Project
                 Review of PBS’s Major Construction and Modernization
                   Projects Funded by the American Reinvestment and
                                  Recovery Act of 2009
                           Audit Number A090172/P/R/R10001

                                 Management Comments

The Benchmark Calculation for the FY10 Construction of the Austin Courthouse project has
been redacted at the Agency’s request.




                                            A-8
                    Recovery Act Report – Austin Courthouse Project
                 Review of PBS’s Major Construction and Modernization
                   Projects Funded by the American Reinvestment and
                                  Recovery Act of 2009
                           Audit Number A090172/P/R/R10001

                                  Management Comments

The Consolidated List of Proposals from subcontractors has been redacted at the Agency’s
request.




                                             A-9
                     Recovery Act Report – Austin Courthouse Project
                  Review of PBS’s Major Construction and Modernization
                    Projects Funded by the American Reinvestment and
                                   Recovery Act of 2009
                            Audit Number A090172/P/R/R10001

                         Audit Response to Management Comments


Award of the CMc Construction Contract

The audit report shows that the option for the construction phase of the contract was an unpriced
option. The report states that the solicitation was amended to inform the bidders that the price
proposal for construction phase services would be used to ensure the bidders understanding of
the cost range and the Guaranteed Maximum Price concept, and that the actual Guaranteed
Maximum Price proposal for construction phase services would not be submitted until after the
design is completed. Additionally, only the design phase services were evaluated and the
contract was awarded based on the pricing for the design phase.

In its comments, PBS states that bidders were required to submit price proposals for the
construction phase services and that an evaluation of the pricing for construction phase service
was made although it was not documented in the Source Selection Evaluation Board (SSEB)
report. In addressing the recommendations, PBS further states that the construction phase
pricing was competed and evaluated by the SSEB.

This is blatantly incorrect. There are two important aspects to consider; whether the information
that the bidders submitted was evaluated as part of the contract evaluation and what the
guaranteed maximum price means. First, while bidders submitted information, it was not
evaluated. The SSEB report specifically shows that the PBS assertion is incorrect. As stated on
page 10 of the SSEB final report:

       The Construction Phase Work is not included in the project cost as an evaluated
       item and is not applicable to this evaluation. The base contract will be awarded
       for the design phase only, with construction a negotiated contract option.

Although pricing information for the construction phase services was required to be submitted as
part of the proposal for the CMc construction contract, the Guaranteed Maximum Price was not
set when the CMc contract was awarded. According to the Federal Acquisition Regulation
15.404-1, a price analysis is required to be performed and the price reasonableness is to be
evaluated. However, the construction phase pricing was not evaluated and so the Guaranteed
Maximum Price was not set. In addition to the SSEB report explicitly stating that it did not
evaluate the construction pricing, it also cites only the price analysis for the design phase
services in its recommendation for award. The Guaranteed Maximum Price of $102,554,074
was not established until the exercise of the construction phase option, effective on July 31,
2009. The negotiation for this phase took place only with the incumbent.

                                              B-1
                     Recovery Act Report – Austin Courthouse Project
                  Review of PBS’s Major Construction and Modernization
                    Projects Funded by the American Reinvestment and
                                   Recovery Act of 2009
                            Audit Number A090172/P/R/R10001

                         Audit Response to Management Comments


Secondly, this contract did not follow the tenets of the CMc Guaranteed Maximum Price contract
type. In this contract type, the construction contractor is brought in during the design phase and
a Guaranteed Maximum Price is established as a limit on the eventual construction price. The
collaborative effort between the architect and the construction contractor is intended to ensure
the contractor completes the construction within the Guaranteed Maximum Price and to reduce
the Government’s risk of cost increases due to design error, omission, or constructability.
Guaranteed Maximum Price is defined as the maximum amount the Government will pay for the
Construction Phase Work. If a Guaranteed Maximum Price had been evaluated and set at the
time of initial contract award it would have been based on $60 million, not $102,554,074.

As such, the audit conclusion that the option for the construction phase services was unpriced
and that a justification for other than full and open competition is required has not changed.

Basis for Price Reasonableness

According to the audit report, PBS did not use the Government cost estimates to establish price
reasonableness, but instead compared the contractor’s cost estimate of $103,836,188 to the FY
09 ECCA of $110,118,414 and FY 10 ECCA of $104,704,779, which are unsupported. As such,
price reasonableness was not established.

In its response, PBS took exception to the statement that the cost of the construction phase
services was not evaluated under the initial award. While PBS acknowledges that the ECCA
amounts used to establish price reasonableness were incorrect, it identifies four factors that it
says the contracting officer took into consideration to ensure the Guaranteed Maximum Price
evaluated by the SSEB was fair and reasonable, including an analysis using an adjusted cost
estimate.

Some of the information that PBS uses to support its argument is inaccurate, inconsistent, and/or
unreliable in determining price reasonableness. For example, PBS’s response takes exception to
the statement that the cost of the construction phase services was not evaluated under the initial
award. However, as noted above, the final SSEB report states that the construction phase costs
were not evaluated. Further, PBS states that it took steps to ensure the awarded Guaranteed
Maximum Price was evaluated by the SSEB and found to be fair and reasonable. However, the
SSEB did not evaluate the Guaranteed Maximum Price of $102,554,074 that is discussed in the
response. The SSEB was only used during the initial contract award when the CMc contractor
submitted $60 million as its construction phase pricing.

                                               B-2
                     Recovery Act Report – Austin Courthouse Project
                  Review of PBS’s Major Construction and Modernization
                    Projects Funded by the American Reinvestment and
                                   Recovery Act of 2009
                            Audit Number A090172/P/R/R10001

                         Audit Response to Management Comments


According to FAR 15.406-3(a) (7), the source and type of data used in the price analysis is
required to be documented. During audit fieldwork, the sole price analysis documented in the
contract files was found in the Award Determination. According to this document, the price
reasonableness determination was made based on the following:

       The GMP of $102,554,074 is 6.87% below the FY2009 ECCA amount of
       $110,118,414 and 2.05% below the FY2010 ECCA amount of $104,704,779.
       The GSA Project Manager has been informed the project will receive the FY2010
       ECCA amount. At approximately 2% below this amount, the GMP is considered
       fair and reasonable and acceptance is in the best interest of the Government. It is
       therefore recommended the GMP of $102,554,074 be accepted for award.

Further, certain aspects of the contracting officer’s four-step price reasonableness methodology
are flawed. For instance, according to the response, the contracting officer relied on the revised
benchmarks of $98,154,329 for an FY 2009 contract award and $102,650,720 for an FY 2010
contract award in determining price reasonableness, but referenced the incorrect amounts in the
Award Determination.

This analysis is problematic. First, the benchmark is a budget estimating application that uses
characteristics of a proposed courthouse such as the number of courtrooms, the number of
judges’ chambers, the proposed square footage, proposed parking, and cost escalation to develop
a generic budget estimate and not a cost estimate based on an actual courthouse design. Second,
the benchmark calculations are using outdated cost escalation data. In this case, the benchmarks
of $98,154,329 for an FY 2009 contract award and of $102,650,720 for an FY 2010 contract
award are using a 12 percent escalation factor that was based on a market study dated May 25,
2007, that was performed before the economic downturn. According to that study, the 12
percent is based on an 8 percent escalation related to labor and materials and a 4 percent
opportunity cost due to the frenzied market. However, the benchmark was not updated for a
more recent market study dated August 2008 that took into account the declining economy and
estimated escalation rates varying from 0 to 4 percent for August 2008 to July 2009 and 5 to 7
percent for July 2011 to July 2012.

According to the response, the contracting officer also relied on competition at the subcontractor
level in determining price reasonableness citing the number of subcontractors submitting bids.
However, the price reasonableness should be determined at the contractor level for evaluation
purposes.

                                               B-3
                     Recovery Act Report – Austin Courthouse Project
                  Review of PBS’s Major Construction and Modernization
                    Projects Funded by the American Reinvestment and
                                   Recovery Act of 2009
                            Audit Number A090172/P/R/R10001

                         Audit Response to Management Comments


PBS’s response also states that the contracting officer used a reconciled cost estimate adjusted
for costs that were not incorporated into the estimate. However, this fails to incorporate the
Government cost estimate at 100 percent of design. The cost analysis in the response uses $91.6
million as the base cost before adjustments for costs such as contingency costs and local fees.
The $91.6 million is the reconciled cost for the two cost estimates at 95 percent of design
completion that were developed in May 2009. However, this cost analysis disregards the $84.6
million Government cost estimate at 100 percent of design completion dated July 1, 2009. It
should be noted that while GSA states that its cost estimates may have been too low because they
were based on a low bid methodology, the $84.6 million Government cost estimate is not based
on low bid and even included contingency costs in its calculations.

Finally, according to the response, the contracting officer took into consideration that the delay
in the completion of the design estimate had a direct and adverse impact on the construction
costs. However, the design delays would not have affected the construction phase pricing
submitted under the solicitation for the CMc contract. The solicitation for the construction
contract stated that construction funding was expected in fiscal year 2009 with an anticipated
construction start of March 2009. The funding for this project was provided in FY 2009 and the
contract was award in July of 2009. As the actual funding and award timeframes are extremely
close to the estimated timeframes in the solicitation, any design delays should have had no effect
on the construction phase pricing.

Based upon the above information, PBS still needs to perform a review of the cost of
construction for the Austin Courthouse project to ensure that the Guaranteed Maximum Price is
fair and reasonable based on information that is current, accurate, and complete.




                                               B-4
                     Recovery Act Report – Austin Courthouse Project
                  Review of PBS’s Major Construction and Modernization
                    Projects Funded by the American Reinvestment and
                                   Recovery Act of 2009
                            Audit Number A090172/P/R/R10001

                             Objectives, Scope, and Methodology

Objectives:

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates. The work for this report was performed
while evaluating the award for the construction of the Austin Courthouse project.

Scope:

The work for this report was performed between October 2009 and January 2010.

Methodology

To accomplish the objective we conducted site visits to the Greater Southwest Region, reviewed
the contract file and other pertinent project documents, met with project staff, and reviewed
applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted government
auditing standards except as noted below. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The planning for this review is based on the audit plan for oversight of the Recovery Act projects
as well as review guidance being applied to all Recovery Act projects. A separate guide was not
prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls
discussed in the report have been assessed.




                                               C-1
                     Recovery Act Report – Austin Courthouse Project
                  Review of PBS’s Major Construction and Modernization
                    Projects Funded by the American Reinvestment and
                                   Recovery Act of 2009
                            Audit Number A090172/P/R/R10001

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (7P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Regional Inspector General for Investigations (JI-7)

Regional Inspector General for Audits (JA-7)

Assistant Inspector General for Investigations (JI)




                                               D-1
